AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Deactivating and Decommissioning
 Facilities at the Savannah River Site




 DOE/IG-0684                                April 2005
REPORT ON DEACTIVATING AND DECOMMISSIONING FACILITIES
AT THE SAVANNAH RIVER SITE




TABLE OF
CONTENTS


  Deactivation and Decommissioning Activities

  Details of Finding                                    1

  Recommendations and Comments                          4


  Appendices

  1. Objective, Scope, and Methodology                  7

  2. Prior Audit Reports                                9

  3. Management Comments                                11
DEACTIVATION AND DECOMMISSIONING ACTIVITIES

Background                           In September 2003, Westinghouse issued the current version of the
                                     Savannah River Site Environmental Management Integrated
                                     Deactivation and Decommissioning Plan. This plan described the
                                     projected end states for Savannah River Site facilities, waste tanks,
                                     and waste sites; the anticipated sequencing and timing of
                                     deactivation and decommissioning activities; and the composite
                                     costs to achieve those end states. As part of its contract,
                                     Westinghouse was tasked by the Department to deactivate and
                                     decommission 225 specific facilities at the Savannah River Site by
                                     the end of FY 2006.

Risk and Cost                        We determined that the Department has performed deactivation
Reduction                            and decommissioning activities on 55 facilities that posed no
                                     potential risk to the environment, workers, and/or the public and
                                     provided minimal reduction in surveillance and maintenance costs.
                                     Additionally, some of the facilities that did pose an environment,
                                     safety and health (ES&H) risk1 were not scheduled for closure or
                                     included in the scope of the current contract.

                                     Westinghouse had developed a computer risk assessment model,
                                     the Ranking and Sequencing Model (Model), which would use
                                     three risk factors – ES&H, economic, and programmatic – to
                                     quantitatively identify a risk ranking for each of the facilities.
                                     Despite the availability of the Model, as of August 2004, 67
                                     percent of the facilities that the Department had deactivated and
                                     decommissioned at the Savannah River Site posed no potential
                                     ES&H risk. The estimated demolition cost for these facilities was
                                     $7.8 million; however, the estimated reduction in annual
                                     surveillance and maintenance costs was only $122,900. For
                                     example, Westinghouse deactivated and decommissioned the
                                     following two facilities:
                                            •     675-T Glass Melter Building – Based on Westinghouse's
                                                  calculations, the ES&H risk value for this building was
                                                  zero – signifying that it posed no ES&H risk to the
                                                  environment, workers, and/or public. This building was
                                                  formerly used for the development and testing of various
                                                  melter systems; however, no radioactive materials were
                                                  ever used in the building. The estimated demolition cost
                                                  for this facility was $540,237 and the estimated
                                                  reduction in annual surveillance and maintenance cost
                                                  was about $5,000.
1
  For the purpose of this report, the facilities included in this category were only those available for deactivation and
decommissioning as of Fiscal Year 2003. Additional facilities become available each year, but were not included in
the scope of our review.




Page 1                                                                                           Details of Finding
                          •   717-D Shops, Stores and Change House – This building
                              also had an ES&H risk value of zero and had been used
                              to provide general area maintenance, machine shop, and
                              administrative support and it was considered a "clean"
                              structure. The estimated demolition cost for this
                              facility was $847,741 and the estimated reduction in
                              annual surveillance and maintenance cost was also
                              about $5,000.

                   Using its computerized model, Westinghouse identified 105
                   facilities, available by FY 2003, that posed some potential ES&H
                   risk. However, not all of these facilities were included in the scope
                   of the current contract. To illustrate, the Department does not plan
                   to deactivate and decommission the 242-H 1H Evaporator Facility
                   before September 30, 2006, despite the fact that this facility posed
                   the largest potential ES&H risk of all the identified facilities.
                   Management stated that EM's justification for the delay was that
                   the facility is near active facilities and pursuing deactivation and
                   decommissioning could create safety issues for workers in those
                   facilities. Nevertheless, this facility had not been in use since 1994
                   and was identified as a Nuclear Category 2 facility – a site that has
                   the potential for significant onsite consequences associated with an
                   unmitigated release of radioactive and/or hazardous materials.
                   This risk, along with the economic risk of not reducing estimated
                   annual surveillance and maintenance costs of $2 million by
                   spending an estimated $1.6 million to deactivate and
                   decommission the facility, should be further considered.

Prioritizing       Facilities posing no ES&H risk were addressed ahead of others
Deactivation and   with higher-risk because the Department did not use the Model
Decommissioning    designed by Westinghouse and did not prioritize its activities
Activities         based on potential ES&H risk reduction. Rather, it chose to select
                   facilities based largely on physical location and ease of
                   completion. Specifically, the Department pre-selected excess
                   facilities that were physically located at or near the site boundary
                   with the goal of permanently closing these areas and creating a
                   buffer zone between the public and the core areas of the site. This
                   approach, however, was not the most advantageous to the
                   Department. Facilities selected posed little, if any, risk to the
                   environment, workers, and/or public, and as such, provided
                   minimal benefit.

                   The Acting Assistant Secretary for Environmental Management
                   agreed that the Department could have done a better job of
                   prioritizing facilities for deactivation and decommissioning



Page 2                                                               Details of Finding
                   activities, but cited several impediments to closing higher-risk
                   facilities. For example, workers initially lacked the expertise in
                   clean-up activities and had to be trained. Also, the danger
                   associated with these activities dictated a slower progression prior
                   to moving to higher-risk facilities. Finally, the Department sought
                   to send a message that work as usual was changing – the site was
                   no longer focused on nuclear weapons creation but was moving to
                   site cleanup and eventual closure. For example, the Department
                   chose to deactivate and decommission the main cafeteria, an action
                   that affected workers on a daily basis and thus got their attention
                   even though the facility contained little contamination.

                   While the Department's approach may have been understandable in
                   the short run, it does not fully account for the planned approach for
                   addressing facilities during the life of the current contract. As
                   noted earlier, about 67 percent of the facilities deactivated and
                   decommissioned at the Savannah River Site as of August 2004
                   have posed no ES&H risk. If the Department continues on its
                   current path and completes the deactivation and decommissioning
                   activities for all of the 225 facilities included in the current
                   contract as planned, more than 60 percent of the facilities
                   deactivated and decommissioned will have posed no potential risk
                   to the environment, workers, and/or public.

Higher Potential   According to the Department's current plans, 22 facilities which
Risks and Costs    pose some potential ES&H risk will not be deactivated and
Remain             decommissioned until after FY 2006, the conclusion of the current
                   contract. The higher potential risk from these 22 facilities will
                   continue to exist until the Department negotiates its new contract
                   and schedules these facilities for closure. Also, the Department
                   will continue to incur the costs associated with surveillance and
                   maintenance activities on higher-risk facilities.

                   Based on the Department's cost estimates, it will incur an estimated
                   $44.8 million to deactivate and decommission facilities which
                   posed no potential ES&H risk. However, the Department will only
                   reduce its estimated annual surveillance and maintenance costs by
                   $306,100. Instead, the Department could have incurred an
                   estimated $21.7 million to deactivate and decommission 20 of the
                   22 facilities mentioned above and reduced the Department's
                   estimated annual surveillance and maintenance costs by $2.2
                   million. The remaining two facilities would have required
                   substantial deactivation and decommissioning costs with minimal
                   reductions in annual surveillance and maintenance costs.




Page 3                                                              Details of Finding
RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management direct the Manager, Savannah River Operations
                  Office to:

                   1. Halt deactivation and decommissioning activities on facilities
                      that pose no potential ES&H risk to the environment,
                      workers, and/or public;

                   2. Re-prioritize all remaining facilities based on the potential
                      ES&H risk that the facilities may pose to the environment,
                      workers, and/or public; and,

                   3. Re-negotiate the current contract with Westinghouse to
                      accelerate deactivation and decommissioning activities on the
                      facilities that pose the highest potential risk to the
                      environment, workers, and/or public.

MANAGEMENT        The Office of Environmental Management did not concur
REACTION          with the recommendations in the report. Management stated that,
                  while the findings and recommendations were correct in a limited
                  context, they did not fully take into consideration key aspects of
                  worker safety as a driving factor in sequencing work.

                  Management stated that while it may seem that deactivation and
                  decommissioning of the highest risk or highest hazard facilities
                  first makes the most sense, in fact, almost the opposite is true. The
                  lack of credible as-built schematics requires careful planning and
                  robust oversight of the work. Also, a great deal of work requires
                  personal protective equipment. As such, EM specifically targets
                  lower risk and lower hazard facilities first in the deactivation and
                  decommissioning process to allow workers and operators to gain
                  the on-the-job experience needed for higher hazard facilities, a
                  strategy it has followed at accelerated closure sites such as Rocky
                  Flats. For example, in some cases, EM has had workers don full
                  sets of personal protective equipment in facilities with no
                  radiological or chemical hazard so they can get comfortable and
                  proficient with their gear. This is the approach that EM took at its
                  four accelerated closure sites.

                  Management also stated that its current strategy aims to expedite
                  the closure of entire areas, beginning with those near the perimeter
                  of the Savannah River Site. It has found this approach to be the
                  most cost-effective while also addressing, in the near-term, areas
                  closest to off-site receptors.




Page 4                                         Recommendations and Comments
           Finally, management stated that it had recently added two higher
           risk facilities to the current contract scope of work and has
           deactivation activities ongoing at two other higher risk facilities.

           Management's verbatim comments can be found in Appendix 3.

AUDITOR    We acknowledge and appreciate EM's desire to adequately plan
COMMENTS   and oversee a robust deactivation and decommissioning effort at
           the Savannah River Site. We also see the value of providing
           workers with experience in a lower risk facility prior to moving on
           to the higher risk facilities. However, the extent to which it is
           being carried out at the Savannah River Site is questionable and
           inconsistent with the implementation of the Top-to-Bottom Review
           initiatives. In our opinion, deactivation of 55 facilities with no
           ES&H risk over a 2-year period is adequate to gain the experience
           necessary to safely deactivate and decommission higher-risk
           facilities. Continuing this approach through 2006 and beyond is
           inconsistent with what EM reported to Congress on the status of its
           implementation of the Top-to-Bottom Review initiatives.
           Specifically, EM reported that it had based contractor incentives on
           accelerated risk reduction criteria, requiring contractors to focus on
           reducing or eliminating the highest risks first. Yet, except for the
           two new facilities that have been recently added, EM continues to
           focus a majority of its efforts on the lower risk facilities with many
           of the higher risk facilities not being addressed until FY 2007 or
           later.

           In addition, we found that the deactivation and decommissioning
           program at Savannah River has not performed an exercise where
           workers use full sets of personal protective equipment on facilities
           with no radiological or chemical hazard. Rather, we were
           informed by Department and contractor officials at the Savannah
           River Site that all radiological safety training associated with
           personal protective equipment was conducted in a classroom
           setting and not on-the-job during deactivation and
           decommissioning activities. Thus, we do not see its relevance in
           justifying why EM has targeted lower risk facilities for a majority
           of the deactivation and decommissioning work at the Savannah
           River Site.

           Finally, while EM stated that its strategy to expedite closure of
           entire areas is cost-effective, we were provided with no analysis to
           support such a statement. Conversely, the audit found that the
           current approach of pursuing deactivation and decommissioning of
           lower risk facilities can result in continuing to spend millions on



Page 5                                  Recommendations and Comments
         extensive surveillance and maintenance work typically associated
         with higher risk facilities. Further, the risk Model designed by
         Westinghouse to make deactivation and decommissioning
         decisions already considers the impact of off-site receptors when
         assigning a risk score. Thus, if EM used the Model and focused on
         risk for prioritizing its deactivation and decommissioning
         activities, this issue would already be addressed.




Page 6                              Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of the audit was to determine whether the
              Department is deactivating and decommissioning excess facilities
              at the Savannah River Site in a manner that minimizes risk to the
              environment, workers, and/or public, and provides the greatest
              economic benefit.

SCOPE         The audit was performed between April 15, 2004, and October 8,
              2004, at the Savannah River Site in Aiken, South Carolina. The
              scope of the audit included a review of the current planning for
              deactivating and decommissioning facilities at the Savannah River
              Site between FY 2003 and FY 2025.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Researched Federal and Departmental regulations and
                      other applicable guidance to determine requirements for
                      prioritizing deactivation and decommissioning activities.

                  •   Reviewed Modification M100 of the current contract with
                      Westinghouse and implementation plans to determine the
                      Savannah River Site's methodology for accomplishing
                      deactivation and decommissioning activities and the
                      facilities that will undergo deactivation and
                      decommissioning activities prior to September 30, 2006.

                  •   Reviewed the Model to determine how it was used to
                      implement the Savannah River Site's deactivation and
                      decommissioning activities.

                  •   Reviewed the facilities for which the Department has
                      completed deactivation and decommissioning activities as
                      of August 2004 to determine whether these activities
                      resulted in reducing the highest potential risk to the
                      environment, workers, and/or public.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Accordingly, we assessed internal controls and performance
              measures established under the Government Performance and
              Results Act of 1993 related to deactivating and decommissioning
              requirements. The Department established performance measures
              which required Westinghouse to complete deactivation and



Page 7                                   Objective, Scope, and Methodology
Appendix 1 (continued)

                    decommissioning of 45 excess facilities in F-Area at the Savannah
                    River Site. All other deactivation and decommissioning activities
                    were at the discretion of Westinghouse. Because our review was
                    limited, it would not necessarily have disclosed all internal control
                    deficiencies that may have existed at the time of our audit. In
                    performing this audit, we relied on computer-based data to
                    accomplish the audit objective and, therefore, we performed
                    limited tests to assess its reliability.

                    We held an exit conference with the Office of Environmental
                    Management on March 29, 2005.




Page 8                                          Objective, Scope, and Methodology
Appendix 2


                                  PRIOR AUDIT REPORTS


  •   Disposition of Excess Facilities at the Hanford Site (OAS-L-04-15, April 2004). The
      audit found that an integrated disposition baseline for excess facilities at the Hanford Site
      (Hanford) had not been developed. In lieu of an integrated disposition plan, the Richland
      Operations Office (Richland) was relying on the Hanford Life-Cycle Plan, which
      addresses disposition activities at Hanford by waste type and area rather than on an
      individual facility basis. This occurred, in part, because disposition activities at Hanford
      are managed within individual areas rather than prioritized on a site-wide basis.
      Additionally, Richland had not established a separate budget for disposition activities at
      Hanford. Without a comprehensive facility disposition plan and sufficient cost data,
      Richland could not determine which facilities provide the greatest payback for reduced
      surveillance and maintenance costs. Further, the lack of a single manager or separate
      budget increases the likelihood that disposition activities at Hanford may not be given a
      high priority.

  •   Disposition of the Department's Excess Facilities (DOE/IG-0550, April 2002). The audit
      found that the performance of the Department's program to dispose of excess facilities
      was not fully satisfactory. Specifically, facility disposition activities were not prioritized
      to balance mission requirements, reduce risks, and minimize life-cycle costs. In some
      cases, disposition plans were in conflict with requirements for new facilities. In other
      instances, facilities posing little risk were decommissioned, while the Department failed
      to dispose of buildings representing substantially greater risk. This occurred because the
      Department had not: (1) developed a corporate approach for disposition activities; (2)
      collected and reported reliable data on costs associated with disposition activities or on
      decommissioning performance; and, (3) designated sufficient funds to carry out an
      effective disposition program. Without a significantly enhanced approach to facility
      disposition, the Department may be hindered in the accomplishment of its various
      missions. Specifically, the excess facility disposition effort needed better coordination
      between cognizant program offices and greater overall emphasis on risk reduction.

  •   Decontamination and Decommissioning at the East Tennessee Technology Park (ER-B-
      99-01, December 1998). The audit found that the Oak Ridge Operations Office
      (Operations Office) reduced health, safety, and environmental risks through
      decontamination and decommissioning projects at the East Tennessee Technology Park
      (ETTP). However, the major ongoing decontamination and decommissioning project at
      the ETTP did not involve the facility that posed the greatest risk from exposure to
      radioactive waste, hazardous or toxic materials, and structural collapse. This occurred
      because the Operations Office did not fully emphasize reductions of health, safety, and
      environmental risks when it selected and performed decontamination and
      decommissioning projects at the ETTP. As a result, a high-risk facility continues to




Page 9                                                                       Prior Audit Reports
Appendix 2 (continued)


      deteriorate, and hazards to workers and the environment are increased. Also, the
      Department could incur $34.5 million in unnecessary surveillance and maintenance costs
      between FYs 1998 and 2002 for a building, which poses significant risks to workers and
      the environment.

  •   Deactivation, Decontamination and Disposal of Surplus Facilities at the Savannah River
      Site (ER-B-98-01, October 1997). The audit found that Westinghouse Savannah River
      Company only disposed of one facility and did not completely deactivate or
      decontaminate any of the 162 facilities identified as surplus at the Savannah River Site in
      FY 1996. This occurred because the Savannah River Operations Office did not compile a
      site-wide list, establish priorities, or provide sufficient funding for the deactivation,
      decontamination, and disposal of surplus facilities. As a result, the Department incurred
      unnecessary costs for the surveillance and maintenance of surplus facilities.




Page 10                                                                   Prior Audit Reports
Appendix 3




Page 11      Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
                                                                    IG Report No. DOE/IG-0684

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
